December 15, 2009

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: Audit Report – Gateway District Financial Accountability Risk Audit
         (Report Number FF-AR-10-047)

This report presents the results of our audit of financial accountability in the Gateway
District (Project Number 09BD022FF000). This audit was self-initiated and addresses
financial risk. The objective of our audit was to determine whether internal controls over
stamp, cash, and money order accountabilities; financial differences; employee items;
and disbursements at the selected sites were in place and effective. See Appendix A
for additional information about this audit.

Conclusion

We visited five Gateway District post offices and stations with high-risk accounting
activities according to our PARIS Cost and Controls model. We identified internal
control and compliance issues at these sites related to stamp, cash, and money order
accountabilities; financial differences;1 employee items; and disbursements. In addition,
we identified similar issues at five other sites in the Gateway District that we audited
during fiscal year (FY) 2009.2

We attribute these internal control deficiencies to an insufficient district-wide monitoring
program that identified high-risk offices but did not hold unit managers accountable for
implementing and documenting corrective actions. As a result, Gateway District post
offices, stations, and branches are at an increased risk of losing cash, accountable
items, and revenue without detection; and misstating financial records. We identified
$171,000 in monetary impact and approximately $1.9 million in non-monetary impact as
a result of unit managers not effectively implementing internal controls.




1
    Financial differences are unreconciled expense entries that must be researched and resolved in a timely manner.
2
    See Prior Audit Coverage in Appendix A.
Gateway District Financial Accountability Risk Audit                                       FF-AR-10-047


Monitoring of Internal Control Procedures Needs Improvement

Of the five units we visited, we found internal control weaknesses over stamp, money
order, and cash accountability at all five units; financial differences at four units;
disbursements at three units; and employee items at one unit. For example,
management at the five units did not conduct, witness, and properly document
accountability examinations at the proper frequencies. Four of these units also
maintained excess retail floor stock ranging from 200 to 358 percent above required
levels. Additionally, four of the units did not research and resolve financial differences
totaling $149,586, and three units did not maintain support for disbursements totaling
$11,818. Some of these internal control weaknesses may have contributed to the
$7,380 in stamp stock shortages that we identified at three of the units.

We attribute these deficiencies to an insufficient monitoring program that is supposed to
identify high-risk units that are not complying with financial control activities. Although
district management implemented a program to identify financial risks at the various
units, they did not have a tracking mechanism to ensure unit managers took corrective
actions to address these risks. In addition, unit managers were not held accountable for
implementing and documenting corrective actions taken at their sites. When
management does not take corrective action to address identified financial control
deficiencies, the Postal Service is at an increased risk of losing cash, accountable
items,3 and revenue without detection; and misstating financial records.

See Appendix B for our detailed discussion of stamp, money order, and cash
accountability; financial differences; employee items; and disbursement internal control
deficiencies. Appendix C presents the results of our accountability examinations,
Appendix D presents the detail of the monetary impact,4 and Appendix E presents the
detail of the non-monetary impact.5

We recommend the vice president, Great Lakes Area Operations, direct the manager,
Gateway District, to:

1.   Expand the district’s monitoring of unit financial control activities to include a
     tracking mechanism documenting corrective action taken at units that are not in
     compliance.

2.   Hold unit managers accountable for improving financial operations to address
     identified financial risks.



3
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.
4
  The monetary impact includes recoverable questioned costs and unrecoverable questioned costs.
5
  The non-monetary impact includes assets or accountable items (for example, cash, stamps, and money orders) that
are at risk of loss because of inadequate internal controls.




                                                        2
Gateway District Financial Accountability Risk Audit                  FF-AR-10-047



3.   Develop and implement an action plan with milestones to address the internal
     control deficiencies identified in Appendix B of this report.

Management’s Comments

Great Lakes Area management agreed with our findings and recommendations. The
area accounting team will assume the responsibility of monitoring financial control for
postal retail units due to a change in structure of the Financial Control and Support
(FC&S) group. The area accounting team’s responsibilities will include tracking actions
taken to correct financial discrepancies. Area management also recommended the
district finance manager work with the area accounting manager to enhance the existing
remediation process for holding unit managers accountable to address identified
financial risks. Area management stated they will complete these actions by June 30,
2010. In addition, the Gateway District’s finance manager assigned the Gateway
District’s FC&S manager to work with designated representatives at the St. Louis and
Hazelwood Post Offices to develop and implement a plan to correct the deficiencies
found during the audit. Management completed corrective actions for all deficiencies
identified in Appendix B as of November 30, 2009. See Appendix F for management’s
comments, in their entirety.

Although management agreed in principle with the recommendations in our report, they
disagreed with the non-monetary impact related to unrecorded money orders and
excess stamp stock. Specifically, management agreed the money orders in question
were unrecorded or not destroyed and the excess stock we identified at the units did
exist, but they asserted that these non-monetary accountable items were not at risk
because they were adequately secured at the units.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and their corrective actions should
resolve the issues identified in the report. Although we agree the unrecorded money
orders and excess stamp stock were secured, unrecorded money orders are considered
to be at risk because they could be stolen or lost without detection. Additionally,
maintaining excess stamp stock at the retail units places these accountable items at an
unnecessary risk.




                                                       3
Gateway District Financial Accountability Risk Audit                   FF-AR-10-047



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, director, Field
Financial Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment

cc: Joseph Corbett
    Vincent H. DeVito, Jr.
    Steven Phelps
    Chris R. Oronzio
    Danita M. Aquiningoc
    Sally K. Haring




                                                       4
Gateway District Financial Accountability Risk Audit                                       FF-AR-10-047



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Post offices are the initial level where the Postal Service recognizes revenue from
operations and include main offices, stations, and branches. Postmasters or installation
heads are responsible for collecting all receipts the offices are entitled to, accounting for
all funds entrusted to them, and ensuring the offices meet all financial objectives.

The Gateway District is in the Great Lakes Area and includes 294 post offices with
Point-of-Service (POS) systems and Integrated Retail Terminal reporting technology.
The district reported approximately $200 million of revenue in FY 2009, $10 million of
which was reported by the five units we audited.6 We chose the Gateway District
because we identified internal control issues over stamp, cash, and money order
accountabilities at the sites7 we previously audited in the district in FY 2009.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether internal controls over stamp, cash,
and money order accountabilities; financial differences; employee items; and
disbursements at the selected sites were in place and effective.

To accomplish our objective, we audited the following five judgmentally selected units in
the Gateway District. We selected the sites based on high stamp stock levels, financial
differences, employee items, and disbursements.

       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

We selected the five post offices and stations because risk indicators in our model
suggested these units were at higher financial risk than other units within the Gateway
District. We performed accountability and cash verifications and evaluated whether the
internal control structure over safeguarding of assets was implemented and functioning
as designed at all five sites. Additionally, we reviewed all transactions generated for the
12-month period from July 2008 through June 2009 related to financial differences at
four sites8 and employee items at one site.9 We also judgmentally selected and

6
  Data obtained through the Standard Accounting for Retail for FY 2009.
7
  During FY 2009, we issued reports for audits conducted within the Gateway District at the xxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
8
  Based on our analysis of data in our PARIS model, we reviewed miscellaneous expenses at the xxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
9
  Based on our analysis of data in our PARIS model, we only reviewed employee items at xxxxxxxxxxxxxxxxxxx.




                                                        5
Gateway District Financial Accountability Risk Audit                                     FF-AR-10-047



reviewed 30 disbursements generated for the June 1, 2008, through June 30, 2009,
reporting period for three10 of the five sites.

We used Postal Service instructions, manuals, policies, and procedures as criteria to
evaluate internal controls and data reliability. We interviewed supervisors and
employees and observed operations at these judgmentally selected Postal Service
sites. We also interviewed the district finance manager to determine what procedures
the district has in place to monitor financial control activities at the units.

We conducted this performance audit from July through December 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on October 27, 2009, and
included their comments where appropriate. We did not rely on computer-generated
data to support our findings.

PRIOR AUDIT COVERAGE

The OIG has not conducted financial installation audits of the five units we reviewed in
the past 3 years. However, we issued three financial installation and two performance
audit reports for units in the Gateway District during FY 2009. The reports identified
internal control and compliance issues over cash, money order, and stamp
accountability; financial differences; employee items; and disbursements. The reports
made recommendations to address these issues, and management agreed to take
corrective action.




10
  Based on our analysis of data in our PARIS model, we reviewed disbursements at the xxxxxxxxxxxxxxxxxxxxxxxx,
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.




                                                       6
      Gateway District Financial Accountability Risk Audit                                 FF-AR-10-047




                                              Final          Monetary
   Report Title        Report Number       Report Date        Impact                Report Results
Financial              FF-AR-09-209         8/13/2009          $66,446    This report disclosed 14 internal
Installation Audit                                                        control weakness and compliance
Xxxxxxxxxxxx                                                              issues related to stamp, cash, and
Xxxxxxxxx                                                                 money order accountabilities;
xxxxxxxxxxx                                                               financial accounting and reporting;
xx                                                                        payroll; and payments.
Financial              FF-AR-09-186         6/19/2009               $0    This report disclosed six internal
Installation Audit -                                                      control and compliance issues
xxxxxxxxxxx                                                               related to stamp and cash
xxxxxxxxxxxxxx                                                            accountabilities, inactive accounts,
xxx                                                                       and financial differences.
Financial              FF-AR-09-116         3/16/2009               $0    This report disclosed eight internal
Installation Audit                                                        control and compliance issues
– xxxxxxxxxxxxt                                                           related to accountability
xxxxxxxxxxxxxxxx                                                          procedures, POS system access,
xxxxx                                                                     safeguarding of Postal Service
                                                                          assets, resolving financial
                                                                          differences, bank preparation and
                                                                          closeout procedures, and Voyager
                                                                          card purchases.
Xxxxxxxxxxxx           FF-AR-09-040         12/11/2008           $8,098   This report disclosed 17 internal
xxxxxxxxxxxx                                                              control weakness and compliance
xxxxxxxxxxx                                                               issues related to accountability
xxxxxxxxxxx                                                               procedures, employee items,
                                                                          SmartPay purchase cards, and
                                                                          APC procedures.
xxxxxxxxxxxxxxl        FF-AR-09-027         11/28/2008              $0    This report disclosed six internal
xxxxxxxx                                                                  control weakness and compliance
xxxxxxxxxxxxx                                                             issues related to accountability
                                                                          examinations, inactive cash
                                                                          retained credits, money orders,
                                                                          stamp stock levels, and vending
                                                                          stock disposition.




                                                             7
Gateway District Financial Accountability Risk Audit                                            FF-AR-10-047



                                 APPENDIX B: DETAILED ANALYSIS

Monitoring of Internal Controls Needs Improvement

We found financial internal control weaknesses over stamp, money order, and cash
accountability at all five units; financial differences at four units; disbursements at three
units; and employee items at one unit we visited. We attribute these deficiencies to an
insufficient monitoring program that is supposed to identify high-risk units that are not
complying with financial control activities. Although district management implemented a
program which included reviewing reports to identify high-risk offices, district
management did not hold unit managers accountable for implementing and
documenting corrective action taken to address these risks. When management does
not take corrective action to address identified financial control deficiencies, the Postal
Service is at an increased risk of losing cash, accountable items, and revenue without
detection; and misstating financial records.

Stamps, Money Orders, and Cash Accountability

Management at all five units did not adhere to controls and procedures over stamps,
money orders, and cash accountability. Specifically:

    Management at four units maintained excess retail floor stock totaling $190,301 and
     ranging from 137 to 358 percent above authorized levels.11 In addition, two of the
     units maintained excess unit stamp stock totaling $209,357 and ranging from 53 to
     98 percent above authorized levels.12 Postal Service policy states that management
     must limit the retail floor stock to a 2-week level as determined by stamp sales for
     the same period last year (SPLY).13 Further, the policy states the unit stamp stock
     level must not exceed the average total sales reported in Account Identifier Code
     852, Total Sales, for the SPLY.

    Management at two sites did not secure the unit cash reserve.14 At both sites, we
     found the unit cash reserve maintained in an unlocked compartment within a safe,
     accessible to all retail associates (RA). At one of these units, management did not
     assign the cash reserve to an individual. Postal Service policy states that units are
     to assign the unit cash reserve to an individual who is directly accountable and are
     not to mix the cash reserve with other accountable credits.15

    Two units did not record 2,700 domestic and 38 international money orders valued
     at $1,095,20016 in the POS system. In addition, management at three other units
11
   The combined authorized levels of retail floor stock for the four units at the time of our audits were $72,244.
12
   The combined authorized levels of the unit stamp stock for the two sites at the time of our audits were $329,811.
13
   Handbook F-101, Field Accounting Procedures (FAP), Section 14-2.3, July 2009.
14
   Management may establish a unit cash reserve to provide associates a resource for exchanging large bills for
rolled coins and smaller denomination currency.
15
   FAP, Section 13-8.1.
16
   For reporting purposes, the OIG values blank money orders at $400 each.




                                                          8
Gateway District Financial Accountability Risk Audit                                         FF-AR-10-047



     maintained a total of 1,142 obsolete money orders valued at $456,800 that were not
     recorded in the POS system. Further, we could not locate 2617 money orders valued
     at $10,400 that were recorded in the POS system at two units. Postal Service policy
     requires management to maintain an accurate inventory of all accountable paper
     within the retail unit. Further, the policy requires unit management to destroy all
     obsolete money orders locally.18

    Unit management at the xxxxxxxxxxxxxxxxxxxxxx did not close one inactive RA
     credit.19 Further, the unit supervisor could not find the funds or stock associated with
     this credit and was not aware of its existence in the financial records. Postal Service
     policy requires management to cancel unused credits at least once a month.20

    Management at all five units did not conduct, witness, and properly document
     accountability examinations at the proper frequencies. For example, management
     at the xxxxxxxxxxxxxxxxxxxxxxxx did not conduct monthly counts of the unit cash
     reserve from February through July 2009. In addition, management did not witness
     24 out of 31 cash retained credit examinations conducted between April and August
     2009 at the xxxxxxxxxxxxxxxxxxxxxxxx. Postal Service policy gives specific
     instructions for accountability examinations and provides specific timeframes and
     procedures for conducting, documenting, and witnessing counts.21

    Management did not properly secure Automated Postal Center (APC) repository
     stock inventory at the xxxxxxxxxxxxxxxxxxxxxxx. Management maintained the APC
     stock with the retail floor stock, and it was accessible to all RAs working at the unit.
     Management is required to provide APC stock with the same level of security,
     protection, and performance as stock assigned to an individual.22

These internal control deficiencies may have contributed to the $7,380 in stamp stock
shortages that we identified at three of the units. See Appendix C for a summary of
accountability examinations by unit. See Appendix D for the monetary impact
associated with the unit stock shortages; and Appendix E for the non-monetary impact
associated with excess stock, unsecured APC stock, and unrecorded money orders.




17
   We determined that one of the money orders was cashed for $30 in February 2003. The other 25 money orders
were not cashed as of October 1, 2009.
18
   FAP, Section 10-5.1c and 11-3.1.
19
   Retail associate credits are funds management assigns to unit employees in order to conduct daily transactions
with customers at the retail window.
20
   FAP, Section 13-9.3.
21
   FAP, Sections 13-1.3, 13-4, 13-9.1, 13-9.3, 13-9.5.
22
   Handbook PO 106, Automated Postal Center Program, Section 542.1, November 2007.




                                                         9
Gateway District Financial Accountability Risk Audit                                       FF-AR-10-047



Financial Differences

We examined financial differences at four23 of the five units and determined that
management did not always adhere to established procedures. Specifically, the four
units did not research and resolve financial differences totaling $149,586. For example,
management at the xxxxxxxxxxxxxxxxxxxxxxx did not resolve 22 financial
differences totaling $108,019 that occurred from July 2008 through June 2009. Unit
management is required to research and resolve financial differences and maintain a
system-generated record or log.24 See Appendix D for the monetary impact associated
with this issue.

Employee Items

We reviewed employee items at xxxxxxxxxxxxxxx and found management did not
clear one item totaling $1,884. This item was created in February 2009 for a unit
reserve shortage. According to Postal Service policy, unit managers are required to
monitor outstanding employee items and immediately issue the employee a letter-of-
demand.25 See Appendix D for the monetary impact associated with this issue.

Disbursements

We examined disbursement controls at three26 of the five sites and determined that
management did not always adhere to established procedures. Specifically, we
reviewed a sample of 107 transactions valued at $98,323 and found that unit
management did not maintain sufficient supporting documentation for 72 refunds valued
at $4,561. In addition, management could not provide any supporting documentation
for an additional 26 refund and expense disbursements valued at $7,257. Units are
required to complete, certify, and witness Postal Service (PS) Forms 3533, Application
for Refund of Fees, Products, and Withdrawal of Customer Accounts, for all refunds,
and to keep a copy of the form and supporting documentation on file.27 In addition, all
local disbursements must be supported, verified, and approved.28 See Appendix D for
the monetary impact associated with these issues.

See the next page for a summary of the control deficiencies and specific actions
required.




23
   Based on our analysis of data in our PARIS model, we reviewed financial differences at the xxxxxxxxxxxxxxxxxl
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
24
   FAP, Section 8-6.
25
   FAP, Section 2-4.
26
   Based on our analysis of data in our PARIS model, we reviewed disbursements at the xxxxxxxxxxxxxxxxxxxxxxxx,
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
27
   FAP, Section 21.1.
28
   FAP, Sections 5-4.2 and 19-1.5.




                                                       10
Gateway District Financial Accountability Risk Audit                                                                                                             FF-AR-10-047



          This table presents the internal control deficiencies identified at the five sites judgmentally selected for audit.




                                                                                                    xxxxxxxxxxx
                                                                  xxxxxxxxx




                                                                                        xxxxxxxxx




                                                                                                                  xxxxxxxxx


                                                                                                                              Number of
                                                                  xxxxxxxx


                                                                              Xxxxxxx
                                                                  xxxxxxx


                                                                              xxxxxxx
                                                                              xxxxxxx


                                                                                        xxxxxxx


                                                                                                    xxxxxxx




                                                                                                                              units
                                                                                                                  xxxx
              Internal Control Not Implemented                                                                                                      Specific Actions Required
                                                         Stamp, Cash, and Money Order Accountability
                                                                                                                                          Reduce retail floor stock to the limit
 1.   Maintain retail floor stock within the authorized limit.       X          X        X           X                         4
                                                                                                                                          established by Postal Service policy.
                                                                                                                                          Reduce total stamp stock to the limit
  2. Maintain total stamp stock level within authorized limits.                 X                    X                         2
                                                                                                                                          established by Postal Service policy.
                                                                                                                                          Properly secure the unit cash reserve in
  3. Secure unit cash reserve.                                                  X        X                                     2
                                                                                                                                          accordance with Postal Service policy.
                                                                                                                                          Destroy money orders or return money
  4. Destroy obsolete money orders.                                             X        X                          X          3          orders to xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                                                                                          xxxxxxxxxxxxxx as appropriate.
                                                                                                                                          Record money orders in the POS system or
  5. Record money orders into the POS system.                        X                               X                         2          return money orders to the xxxxxxxxxxxxxxx,
                                                                                                                                          as appropriate.
                                                                                                                                          Investigate and report missing money orders
  6. Investigate missing money orders.                               X                                              X          2
                                                                                                                                          and update the POS system.
                                                                                                                                          Close inactive accountability credits and
  7. Close inactive retail associate credit.                                    X                                              1
                                                                                                                                          update financial records.
  8. Conduct, witness, and properly document                                                                                              Perform accountability examinations at the
                                                                     X          X        X           X              X          5
     accountability examinations at the proper frequencies.                                                                               proper frequencies, as required.
                                                                                                                                          Properly secure APC repository stock in
  9. Secure APC repository stock inventory.                                     X                                              1
                                                                                                                                          accordance with Postal Service policy.




                                                                                         11
Gateway District Financial Accountability Risk Audit                                                                                                                     FF-AR-10-047




                                                                                                xxxxxxxxxxx
                                                                        xxxxxxxxx




                                                                                    xxxxxxxxx




                                                                                                                         xxxxxxxxx


                                                                                                                                     Number of
                                                                        xxxxxxxx


                                                                                    xxxxxxxx




                                                                                                              xxxxxxxx




                                                                                                                         xxxxxxxx
                                                                        xxxxxxx




                                                                                                xxxxxxx


                                                                                                              xxxxxxx




                                                                                                                                     units
               Internal Control Not Implemented29                                                                                                           Specific Actions Required
                                                                           Financial Differences
                                                                                                                                                 Research and resolve all outstanding
 10. Monitor and resolve expense items resulting from
                                                                          X           X           X             X                     4          financial differences in accordance with
     financial differences.
                                                                                                                                                 Postal Service policy.
                                                                              Employee Items
 11. Clear and initiate collection procedures for unresolved                                                                                     Research and resolve outstanding employee items
                                                                                                  X                                   1          in accordance with Postal Service policy.
     employee items.
                                                                               Disbursements
 12. Follow proper disbursement procedures and maintain                                                                                          Complete, review, and retain support
                                                                                      X                         X          X          3          documentation for disbursements.
     proper supporting documentation.




          29
               Shaded boxes represent controls we did not review for the unit based on our analysis of data in our PARIS models.


                                                                                                         12
Gateway District Financial Accountability Risk Audit                                                                                                                      FF-AR-10-047



                                                            APPENDIX C: ACCOUNTABILITY EXAMINATION SUMMARY

          This table presents the results of accountability examinations performed during the audit, rounded to the nearest dollar.
          Shortages and overages presented are the total value of all shortages and overages identified.
                                  xxxxxxxxx                      xxxxxxxxxxxxxx                                                                                                                Total Value of
                                 xxxxxxxxxxxx                      xxxxxxxxx                   xxxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxx               xxxxxxxxxxxxx                          All

                                  Shortage




                                                                  Shortage




                                                                                                 Shortage




                                                                                                                                 Shortage




                                                                                                                                                               Shortage




                                                                                                                                                                                                 Shortage
                                                  Overage




                                                                                 Overage




                                                                                                                 Overage




                                                                                                                                                Overage




                                                                                                                                                                                 Overage




                                                                                                                                                                                                                  Overage
      Accountability

      Unit Reserve Stock                     -   $2,558                  $37               -                -       $127         $1,431                   -   $2,249                       -   $3,717           $2,685



      Unit Cash Reserve                      -               -               -             -                -              -                -             -                -               -                -               -



      Retail Floor Stock                     -   $3,676          $3,663                    -                -    $1,818                     -   $685                       -   $3,818          $3,663           $9,997




                                                                                                            13
Gateway District Financial Accountability Risk Audit                                                  FF-AR-10-047

                             APPENDIX D: MONETARY IMPACT SUMMARY

          This table presents the monetary impact identified at the five sites judgmentally selected
          for audit, rounded to the nearest dollar.

                                                                                Questioned Costs
                        Reference                                          Supported     Unsupported
                       (Appendix B)     Finding Description               Recoverable30 Unrecoverable31
                      xxxxxxxxxxxxxxxxxxxxxxxx
                                     Unresolved financial
                            10       differences (net                                                 $108,019
                                     shortage)
                      xxxxxxxxxxxxxxxxxxxxxx
                                     Retail floor stock
                        Appendix C                                                                         3,663
                                     shortage
                                     Unsupported or
                            12       improperly supported                                                  8,523
                                     refunds
                                     Unresolved financial
                            10       differences (net                                                      2,148
                                     shortage)
                      xxxxxxxxxxxxxxxxxxx
                                     Unresolved financial
                            10       differences (net                                                      1,119
                                     shortage)
                                     Unresolved employee
                            11                                                     $1,884
                                     items
                      xxxxxxxxxxxxxxxx
                                     Unit reserve stock
                        Appendix C                                                  1,431
                                     shortage
                                     Unsupported or
                            12       improperly supported                                                    221
                                     refunds
                                     Unresolved financial
                            10       differences (net                                                    38,301
                                     shortage)
                      xxxxxxxxxxxxx
                                     Unit reserve stock
                        Appendix C                                                  2,249
                                     shortage
                                     Unsupported or
                            12       improperly supported                                                  3,074
                                     refunds
                                     Total $170,631                                $5,563             $165,068




          30
            Recoverable costs that are unnecessary, unreasonable or an alleged violation of laws or regulations.
          31
            Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation. These costs
          are also not supported by adequate documentation.


                                                                  14
Gateway District Financial Accountability Risk Audit                                          FF-AR-10-047

                       APPENDIX E: NON-MONETARY IMPACT SUMMARY

This table presents the non-monetary impact identified during the audits of the five
units, rounded to the nearest dollar.

             Reference                                                Assets at        Accountable
            (Appendix B)      Finding Description                      Risk32         Items at Risk33
            xxxxxxxxxxxxxxxxxxxxxxxx
                   1          Excess retail floor stock                                        $21,016
                              Unrecorded or missing money
               5 and 6                                                                         134,000
                              orders
            xxxxxxxxxxxxxxxxxxxxxx
                   2          Excess total unit stock                                          134,637
                   3          Unsecured unit cash reserve                    $150
                              Obsolete money orders not
                   4                                                                           320,000
                              destroyed
                   7          Inactive retail associate credit                 112
                              Unsecured APC repository
                   9                                                                            58,646
                              stock
            xxxxxxxxxxxxxxxxx
                   1          Excess retail floor stock                                         28,923
                   3          Unsecured unit cash reserve                      150
                              Obsolete money orders not
                   4                                                                            80,000
                              destroyed
            xxxxxxxxxxxxxx
                   2          Excess total unit stock                                           74,720
                   5          Unrecorded money orders                                          969,600
            xxxxxxxxxxxxx
                              Obsolete money orders not
                   4                                                                            56,800
                              destroyed
                   6          Missing money orders                                                2,000
                              Total    $1,880,754                            $412          $1,880,342




32
  Assets or accountable items (for example, cash, stamps, or money orders) that are at risk of loss because of
inadequate internal controls.


                                                          15
Gateway District Financial Accountability Risk Audit        FF-AR-10-047

                        APPENDIX F: MANAGEMENT’S COMMENTS




                                                       16
Gateway District Financial Accountability Risk Audit        FF-AR-10-047




                                                       17
